U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

December 8, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

George B. Larsen v. United States of America,
S.Ct. No. 20-6339

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 4,
2020, and placed on the docket on November 17, 2020. The government’s response is due on
December 17, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 19, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6339
LARSEN, GEORGE B.
USA

KURT DAVID HERMANSEN
LAW OFFICE OF KURT DAVID HERMANSEN
501 WEST BROADWAY
SUITE 1510
SAN DIEGO, CA 92101
619-236-8300
KDH@KURTDAVIDHERMANSEN.COM
619-315-0436(Fax)

